NO
IN THE
SUPREME COURT OF THE UNITED STATES
October Term 2020
IBRAHIM McCANTS,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

ON PETITION FOR WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

MOTION FOR LEAVE TO PROCEED INFORMA PAUPERIS

Petitioner, Ibrahim McCants, pursuant to the Supreme Court of the
United States Rule 39 and 18 U.S.C. ยง 3006A(d)(6), asks for leave to file the
accompanying Petition for Writ of Certiorari to the United States Court of
Appeals for the Third Circuit without prepayment of costs and to proceed in
forma pauperis. Petitioner was represented by counsel appointed under the
Criminal Justice Act, 18 U.S.C. ยง 3006A(b) and (c), in the United States Court of
Appeals for the Third Circuit, and consistent with the Supreme Court of the
United States Rule 39, no Affidavit is required to be filed in support of this motion.

Dated: August 7, 2020

Respectfully submitted,
s/Louise Arkel
LOUISE ARKEL
Assistant Federal Public Defender
Counsel of Record
Office of the Federal Public Defender
for the District of New Jersey
1002 Broad Street
Newark, NJ 07102
(973) 622-7535

